                              NATIONAL SCIENCE FOUNDATION
                                  4201 WILSON BOULEVARD
                                 ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL
                                       26 October, 2000


          MEMO TO: File


          FROM:          SA                i n t w
                                          ~ 0 0 0009
                                                 ~ s
          SUBJECT:      Case ~loseout,C-

 \
          1. This case was initiated as an investigation (I Case) on May 12,2000 based on
             information provided by the Division of Information Services (DIS). The
             information involved incidents of unauthorized computer systems alterations.
             The information provided a link to a previous Sytel contractor,,-'


          2. The Division of Information Services (DIS), The Office of Inspector General
             (OIG), and the United States Postal Service Computer Intrusion Unit (USPS
             CIU) investigated the allegation.
                                      -
          3. The    SUBJECT,^^^ terminated in                         2000.

          4. Under the directive of the Associate Inspector General for Investigations, this
             investigation is closed and no further action is being taken by OIG at this
             time.
